                                                ,,


                                                                           f
                                                                           I
              Department of Health and Human Services

                     OFFICE OF
                INSPECTOR GENEW



                                                                       �




             NATIONAL PRACTITIONER DATA BANK:
                PROFILE OF MATCHES UPDATE




                           ~~SERWc~$
                      &                ‘C..
                                          9
                     v




                          $                   JUNE GIBBS BROWN

                     $
                     ~

                     s                        Inspector General

                     ‘%
                      %.
                         ‘%dyq
                          2                          AUGUST 1994
                                                     OEI-01-94-00031


—-   --——.
                                  OFFICE OF INSPE(TOR                GENERAL

           The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
           amended, is to protect the integrity of the Department of Health and Human Services’ (HHS)
           programs as well as the health and welfare of beneficiaries served by those programs. This
           statutory mission is carried out through a nationwide network of audits, investigations, and
           inspections conducted by three OIG operating components: the Office of Audit Services, the
           Office of Investigations, and the Office of Evaluation and Inspections. The OIG also informs
           the Secretary of HHS of program and management problems and recommends courses to
           correct them.

                                     OFFICE OF AUDIT SERVICES

          The OIGS Office of Audit Services (OAS) provides all auditing services for HHS, either by
          conducting audits with its own audit’resources or by overseeing audit work done by others.
          Audits examine the performance of HHS programs and/or its grantees and contractors in
          carrying out their respective responsibilities and are intended to provide independent
          assessments of HHS programs and operations in order to reduce waste, abuse, and
          mismanagement and to promote economy and efficiency throughout the Department.

                                     OFFICE OF INVESTIGATIONS

          The OIGS Office of Investigations (01) conducts criminal, civil, and administrative
          investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries and of
          unjust enrichment by providers. The investigative efforts of 01 lead to criminal convictions,
          administrative sanctions, or civil money penalties. The 01 also oversees State Medicaid fraud
          control units which investigate and prosecute fraud and patient abuse in the Medicaid program.

                        OFFICE OF EVALUATION                   AND INSPECTIONS

          The OIG’S OffIce of Evaluation and Inspections (OEI) conducts short-term management and
          program evaluations (called inspections) that focus on issues of concern to the Department,
          the Congress, and the public. The findings and recommendations contained in these inspection
          reports generate rapid, accurate, and up-to-date information on the efficiency, vulnerability,
          and effectiveness of departmental programs. This report was prepared in the Boston regionai
          office under the direction of Mark R. Yessian, Ph.D., Regional Inspector General, and Martha
          B. Kvaal, Deputy Regional Inspector GeneraL Project statl

          BOSlON                                                      HEADQUARTERS

          David Veroff, Project Leader                                Alan Levine, Program Specialist


          For additional copii.s of this repo~ pkase contact the Boston regionalo~e by telephone at
          (617) 56S-1050, or by f= at (617) 565-3751.




.   –-—         ——
              .——            __
      Department of Health and Human Services

             OFFICE OF
        INSPECTOR GENER/uj




     NATIONAL PRACTITIONER DATA BANK:
        PROFILE OF MATCHES UPDATE




               .
              *v
                   $
              5        JUNE GIBBS BROWN
              ~
              s        Inspector General
              %
               ~+>
                +  %dy~
                   2      AUGUST 1994
                          OEI-01-94-00031



——       ——
                EXECUTIVE                         SUMMARY

 PURPOSE

 To update a profile of National Practitioner Data Bank matches--those occasions on
 which the Data Bank has provided reports of malpractice payments or adverse actions
 to requesting entities.

 BACKGROUND

The National Practitioner Data Bank opened on September 1, 1990. It maintains
records of malpractice payments (both judgments and settlements) and adverse actions
against licensed health care practitioners. The Data Bank provides hospitals and other
health care entities with information relating to the professional competence and
conduct of physicians, dentists, and other health care practitioners. The Data Bank
receives reports of adverse actions against practitioners from State licensing boards,
hospitals and other health care entities, and professional societies. It receives reports
of malpractice payments from malpractice insurers.

As of April 1994, the Data Bank had received 3,462,297 requests for information and
82623 reports of adverse actions or malpractice payments. When a request names a
practitioner who has been reported to the Data Bank, the request-report pair is
referred to as a “match.” As a result of the queries made by April 1994, 152,941
matches had occurred.

In April 1992, we published a report profiling all Data Bank matches through
March 19, 1992 as a byproduct of a larger study we conducted on the usefulness and
impact of information stored in the Data Bank. The profile report provided
information about the Data Bank’s history that was not available elsewhere. The
Administrator of the Health Resources and Services Administration recently asked for
an updated study on the usefulness and impact of the Data Bank. We agreed to do
so. We produced this update of the profile report as a first step in the broader study,
which is now underway.

FINDINGS

NUMBER OF WITCHES: By Februmy 1994,             the   ZotaInumber of matches was abnost
7 ti huger than it was as of Mada 1992

�	    The total number of matches increased from 20,954 as of March 1992 to
      144,649 as of February 1994.

�	    The average number of matches per month increased from 1,126 in the period
      prior to March 20, 1992 to 5,022 in the later period.




                                            i
TYPES OF PM CT17TONERS INKOLKED IN M=4TCHES: l%e majody of
pmctitioners involved k matcha continue to be physiiimu.

 �      In each period, 93 percent of the matches involved physicians.

TYPES OF OVERIERS RECEIVIIVG M4TCH INFORMATION: JWtik mmt of the
matches stiff rend @m quaies by hospita~ a much higher proportion of matches now
rauil @m queriin by health rnabztenance orgatitiom and group practictx

 �	     On average, queriers receiving any match information matched on many more
        practitioners than they had in the earlier study period.

TYPE OF REPORTS RESULTING IN M4TCHES:                  I& reports involved in matches are
still hugely ma@actke payment reprts.

�      The size of the malpractice payments involved in matches has grown somewhat.

�	     Licensing boards and hospitals each still account for about half of the adverse
       action reports involved in matches.

lN?ERSTAT2Z MATCHES: A greater pqxxtzhn            of matches suppij information about
pmctitiimm who cnxed state likes

�	     Interstate matches accounted for 9.3 percent of all matches in the earlier study
       period; in the later period, they accounted for 15.3 percent.


CONCLUSION

In the future, regardless of shifts in the volume of matches and types of queriers
involved in matches, we can expect most matches to involve reports on physicians with
malpractice payments.

The growth in the number and proportion of matches resulting from queries from
health maintenance organizations and group practices may indicate that volunta~
queriers are more aware of the Data Bank than they used to be and/or that they sense
it is valuable to query the Data Bank.

APPENDICES

In four appendices, we provide details on the types of practitioners.   queriers,
malpractice payments, and adverse actions involved in matches.




                                             ii


        —
                            TABLE                     OF CONTENTS


                                                                                                                         PAGE
  ~~fMJMMARY....                            .....             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..i


  ~OIXJCI’ION                 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ..I


  _INGS             . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...3


       Number ofmatches              . . . . . . . . . . . . . . . . . .

                                                                            . . . . . . ,,...O
                                                                                       . . . . . . . . . . . . . . . 3

     Types ofpractitioners involvedh matches . . . . . . . . . . . . . . . . . . . . . .

                                                                                                         . . . . . . 4

    Types ofqueriers receitingmatch           information . . . . . . . . . . . . . . . . . . . . . .                 4

                                                                                                               . . .

    Type ofreports resulting in matches . . . . . . . . . . . . . . . . . . . . . .

                                                                                              . . . . . . . . . . . 5

    Interstate matches . . . . . . . . . . . . . . . . . .

                                                            . . . . . . . . . . . . . . . . . . ..O . . . . . . . 6

 CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ...7


APPENDICES

& Practitioners Involved in Matches . . . . . . . . . . . . . . . . . . . .

                                                                                                 . . . . . . . . ..O. . . A-1

B: Queriers Involved in Matches.                 . . . . . . . . . . . . . . . . . . .

                                                                      . . . . . . . . . . . . . . . . . B-1

CMaIpractice        Pa~ent        Repotis Involved in Matches . . . . . . . . . . . . . . . . . . . . . C-1


D: Adverse Action Reports Involved in Matches . . . . . . . . . . . . . . . . . . . . . . . . . D-1


ENotes         . . . . . . . . . . . . . ..OOO
 . . . . . . . . . . . . .
                                                                          . . . . . . . . . ..O . . . . . . . . . . E-1

                              INTRODUCTION

PURPOSE

To update a profile of National Practitioner Data Bank matches--those occasions on
which the Data Bank has provided reports of malpractice payments or adverse actions
to requesting entities.

BACKGROUND

The National Practitioner Data Bank maintains records of malpractice judgments and
adverse actions against licensed health care practitioners. It was established by
Title IV of the Health Care Quality Improvement Act of 1986 (P.L. 99-660) and has
been in operation since September 1, 1990. The Data Bank is fimded by user fees
and is administered by Unisys Corporation under contract to the Health Resources
and Semites Administration (HRSA) of the Public Health Service (PHS).

The Data Bank provides hospitals and other health care entities with information
relating to the professional competence and conduct of physicians, dentists, and other
health care practitioners. Congress believed the Data Bank could, among other things,
help “restrict the ability of incompetent physicians to move from State to State without
disclosure or discovexy of the physician’s previous damaging or incompetent
performance.”1



II              DEFINITION     OF TERMS USED IN THIS REPORT
 REPORT                              Information sent to the Data Bank about a
                      *              practitioner by a malpractice insurer, hospital,
                     n               licensing board, or professional society.

 RECORD                              A report that has been received and is
                                     permanently stored by the Data Bank.
                     H



                    �
QUERY                                A request for information about a practitioner
                          m          submitted to the Data Bank by a hospital,
                                     licensing board, or other health care entity.

MATCH                z               A pairing of a record and quexy that identifies
                                     the same practitioner.
                    H‘m




                                          1

 State licensing boards, hospitals and other health care entities, and professional

 societies submit reports of adverse actions against practitioners to the Data Bank.2

 These groups must report certain actions against physicians and dentists, and health

 care entities and professional societies may report certain actions against other

 licensed practitioners:   Reports of malpractice payments are submitted by insurers,

 who must report all judgments and settlements made on behalf of all licensed

 practitioners.4


Data Bank records may be released only to authorized entities (referred to in this

report as queriers). Authorized queriers include hospitals and other health care

entities,5 State licensing boards, professional societies, and, under specified conditions,

plaintifk’ attorneys in malpractice suits. Also, practitioners may request their own

records. Only hospitals are required by law to query the Data Bank. They must

request records for practitioners wishing to obtain clinical privileges and, every 2 years,

for all practitioners with privileges.b


When a hospital, licensing board, or other health care entity requests information on a

certain practitioner from the Data Bank, and that practitioner has been reported to

the Data Bank the request-report pair is referred to as a “match.” Through

April 30, 1994 (the most recent date for which complete statistics are available), the

Data Bank had received 3,462,297 requests for information and 82623 adverse action

or malpractice payment reports. These requests and reports had resulted in 152,941

matches.’


In April 1992, we published a report profiling all Data Bank matches through

March 19, 1992 as a byproduct of a larger study we conducted on the usefulness and

impact of information stored in the Data Bank.8 The profile report provided

information about the Data Bank’s history that was not available elsewhere. The

Administrator of the Health Resources and Services Administration recently asked for

an updated study on usefulness and impact of the Data Bank. We agreed to do so.

We produced this update of the profile report as a first step in the broader study,

which is now undenvay.


METHODOIQGY


The Office of Inspector General (OIG) requested and received from Unisys

Corporation a computer file containing records logged between March 20, 1992 and

February 25, 19949 of all queries and reports received by the Data Bank that

identified the same practitioner. 10 We restructured and analyzed the data using SAS

Release 6.08 on a mainframe computer. We also obtained statistics pertaining to all

reports and queries received by the Data Bank as of April 30, 1994. whether or not

they were involved in matches. Our review was conducted in accordance with the

Quality Standards for Inspections issued by the President’s Council on Integrity and

Efficiency.





                                            2

                                                            FINDINGS

      NUMBER OF WITCHES: By February 1994, the total number of matches was aikumt
      7ti  LIIgerthan it was as of Mad 1992

       Between September 1, 1990, and March 19, 1992 (Period A), a total of 20,954 matches
       occurred. Between March 20, 1992 and February 25, 1994 (Period B), 123,695
      matches occurred. The total number of matches horn September 1, 1990 to February
       25, 1994 was therefore 144,649 or 6.9 times larger than the 20,954 matches as of
      March 19, 1992.11 Figure 1 below describes the increase in the average number of
      matches per month between the two periods. The increase in matches is driven by
      two forces: a rise in the number of queries and a larger volume of records in the
      Data Bank available to be matched against. The total number of queries grew from
      about 1 million after the end of Period A to over 3 million after the end of Period
      B.12 The total number of records available to match against grew from about 25,000
      at the end of Period A to over 75,000 at the end of Period B.13 The approximate
      odds of a query resulting in a match jumped from 1 in 50 over Period A to 1 in 17
      over Period B.14 With this increase in the “match rate” and the increase in queries,
      the large increase in matches is not surprising.

                                                                   Figure 1
                 THE AVERAGE NUMBER OF MATCHES PER MONTH HAS GROWN DRAMATICALLY
                            FROM PERIOD A (9/90 - 3/92) TO PERIOD B (3/92 - 2/94)

              Matches/Month
                 6000,

                5500 J
                             I
                             I
                4500-
                4000-

                3500-

                3000-

                2500-

                2000-
                         I

                         I
                1000

                 500 L
                                                 Period A                     Period B
          MTA SOU17ClS N@md      Fnd9mur   WmANALW!SH   US06hd~Qunrd




                                                                       3



—__
~eamount     ofifiomation   from each matching que~has increased slightly. In
Period B, 102,120 queries matched 123,695 records. This means that each query
involved in a match provided the querier with an average of 1.21 (123,695 + 102,120)
records per query in Period B. This is 10.0 percent more information than the 1.1
records per query in Period A (19,034 queries matched 20,954 records).

TYPES OF PM C777YONERS INVOLVED IN MA TCHE$: 2%?mujority of practitioner
involved in matches contihue to be physicims

There were 32,605 different practitioners represented in matches that occurred in
Period B; this compares with the 10,185 represented in matches in the earlier
period. 15 In both periods, 93 percent of the matches involved physicians. In Period
~ 4 percent involved dentists; 3 percent involved dentists in Period B. Appendix A
displays the types of practitioners involved in matches.

Seventy-six percent of all reports to the Data Bank as   of April 30, 1994 involved
physicians,lb whereas 93 percent of the matches from     March 20, 1992 through
February 25, 1994 involved physicians. This disparity    is not surprising because
hospitals are the only mandated queriers of the Data     Bank and are most likely to
query about physicians.

TXPES OF (9UERIERS RECEIJ?ZNG ikMTCH INFOIWIX770N: While most of the
matches still rtxiultjhm queries by Jz.apiM& a much higher proportion of mutches now
result fmm qutvies by health nuuktenunce oqanizaticms and group pmcn”ceis

The number of queriers who submitted requests that led to matches increased from
4,357 in Period A to 6,954 since then.1’ Of these matching queriers, a much smaller
proportion were hospitals in the more recent period (72.3 percent compared to
91.3 percent). A much greater proportion were health maintenance organizations
(HMOS) and group practices (24.2 percent compared to 6.5 percent). Figure 2
displays these figures graphically appendix B provides details.

While hospitals are the only organizations required by law to query the Data Bank,
standards put in place in 1993 require HMOS interested in receiving National
Committee for Quality Assurance accreditation to query the Data Bank for each
practitioner seeking credentials or renewing credentials.ls This may explain part of
the large increase.

Most of the 89,430 hospital matches in Period B resulted from mandato~ two-year
queries (66.1 percent). Initial privileging and employment queries accounted for
32.0 percent and professional retiew activity accounted for 1.4 percent.19 These
proportions are very similar to those in the earlier period.




                                           4

                                           Figure 2
                 A MUCH HIGHER PROPORTION OF MATCHES NOW RESULT FROM QUERIES
                                           BY HMOS AND GROUP PRACTICES                                                       I




                  Matches by Type of Querfer                                    Matches By Type of Quener
                     PeriodA (9/90 +/92)                                          Perfod B (3/92 - 2/94)
                          N-20,954                                                    N=123,695


                                                                                                      -       (7294)


                                                                 )
                                                                                                          Other(4%)
                                                                 (7%)
                                                                                                      HMO/GP(24%)




     MTASOURCi2NMknd   Rmdlanr     OdskA   NIAAYSSHHSOMmdh@omr          Qana@

     I
�	       On average, queriers receiving any match information matched on many more
         practitioners than they had in the earlier study period.

Querierswho match          submitting queries and matching on more than one
                             are
practitioner. Up until March 1992, the mean was 4.4 practitioners matched per
querier; since March 1992. that figure has grown to 14.7 practitioners matched per
querier. While this is clearly a function of more information being available in the
Data Bank, it is a remarkable growth nonetheless and may give matching queriers a
better understanding of the full range of information available in the Data Bank.
Fourteen percent of queriers in the second study period matched on exactly 1
practitioner, and 46 percent matched on 5 or fewer. A few queriers matched on many
more practitioners; 1 national health maintenance organization matched on 3,390
different practitioners in Period B.

TYPE OF REPOR7S RESUL77NG IN MTCHES:                                        %       reports involved in matcti         are
still Iatgely malpractice payment reprts

Since March 1992, a total of 1,971 reporters have submitted 40,355 adverse action or
malpractice reports that have been matched.20 While these numbers have increased
significantly since our first study period, the proportions of the total involving
malpractice payment reports versus adverse action reports has not shifted much. In
Period ~ malpractice payment reports made up 88 percent of all the matches;


                                                             5

 adverse actions made up 12 percent; in Period B, those figures were 89 percent and
 11 percent respectively.

 �      The size of the malpractice payments involved in matches has grown somewhat.

 From September 1, 1990 to March 19, 1994 the malpractice payment amounts
 involved in matches ranged from $1 to $4,675,000, with a mean of $132,358.21 Both
 the range and the mean have grown since then. The range in the period since March
 1992 now extends to $9,000,000 and the mean is $199,114. The median has also
 grown,from $50,000 to $60,000.Z Appendix C displays these figures in tabular form.

The distribution of matches into categories of acts or omissions has remained
essentially the same. In both periods, a majority of the malpractice reports that
appeared in matches fell into three major types of acts or omissions: 32 percent were
surge~-related, 28 percent diagnosis-related, and 19 percent treatment-related.
Appendix C summarizes the types of acts or omissions.

 �	    Licensing boards and hospitals each still account for about half of the adverse
       action reports involved in matches.

Adverse action reports appearing in matches came from two major sources. In the

Period ~ 52 percent came from Iicensure actions submitted by State boards and

47 percent from hospital clinical privileges actions. These figures changed to 56

percent and 43 percent respectively since March 1992. The remaining 1 percent in

each period came from professional societies reporting about membership actions.


The patterns of specific actions and reasons for actions taken against practitioners that

show up in adverse action matches were very similar in both periods. Major

categories of actions include probation of license (23 percent of adverse action

matches in Petiod A and 22 percent in Period B) and denial of clinical privileges

(12 percent in Period A and 9 percent in Period B). The reasons for action include

incompetence, malpractice, and negligence (16 percent in Period A and 15 percent in

Period B), unprofessional conduct (11 percent in Period A and 10 percent in Period

B), and alcohol and other substance abuse (10 percent in each period).m

Appendix D summarizes the types of actions and reasons for actions.


INTERSTATE M4TCHES: A greater proportion of matcher supply information aboti
praditionm who crossed state lhws.

One of Congress’s priorities in establishing the Data Bank was to prevent incompetent

and unprofessional practitioners from evading detection by simply crossing State lines

to practice. In the Period ~ interstate matches occurred 1,956 times (or 9.3 percent

of all matches); in Period B, interstate matches occurred 18,975 times (or 15.3 percent

of all matches). X Being reported to the Data Bank, however, is not in itself

evidence of incompetence or unprofessionalism. We cannot determine whether these

matches have actually protected the public from potential harm.



                                           6
                              CONCLUSION

Thenumber ofmatches hasgreatly increased since March 1992 anda much larger
proportion ofmatches nowresultfiom        queries from heakh maintenance organizations
and group practices. Despite these shifts, the vast majority of matches continue to
involve physicians andtoconcem       malpractice payments. This indicates that in the
future, regardless of shifts in the volume of matches and types of queriers involved in
matches, we can expect most matches to involve reports on physicians with
malpractice payments.

The growth in the number and proportion of matches resulting from queries from
health maintenance organizations (HMOS) and group practices may indicate that
voluntary queriers are more aware of the Data Bank than they used to be and/or that
they sense it is valuable to query the Data Bank. We will examine questions of
usefulness and impact of Data Bank information, including to HMOS and group
practices, in upcoming reports.




                                          7

                                              APPENDIX                       A

              NATIONAL PRACHT’IONER                      DATA BANK PROFILE OF MATCHES
                       PRACHTIONERS                      INVOLVED IN MATCHES

      TYPE OF PRACITf’IO~ER                                            NUMBER OF                       NUMBER OF
                                                                        MATCHES                         MATCHES
                                                                 Period k 9/lPO - 3J19J92        Pericd B: 31’20f92- 2/25J94

      TOTAL                                                                         20,954                          123,695

      Physicians and Dentists                                             20,165 (%.2%)                    119,501 (%.6%)

                Allopathic Physicians                                          18,038        ~                  10~198
                Allopothic Physician Residents                                    219                             1,298
                Osteopathic Physicti                                            1,135                             6978
                Osteopathic Physieion interns and Residents                        26        ~                      132
                Dentists
                                                         735        1                    3,856
                Dento/ Residents
                                                  12        ~                       39

      Podiatrists                                                            486 (2.3%) I                    2,582 (21%)

      Psychologists                                                           51 (0.2%) ~                      248 (0.2%)

      Other Health Care Disciplines/Personnel                                 36 (0.2%) I                      188 (0.2%)

                chiropractors                                                        x                               82
                Dentwirts                                                            01                               2
                MentolHeolth Coumelors                                               o                                2
                Opticions                                                            o                               10
                Optomo’i.m                                                          20	                              .x’
                Pharlnacirk3                                                        0;                                2
                Physicbt Assistants                                                 51                               32
                Physician Assistontr, Osteopath                                     0’                                I
                Podiotric Assistants                                                2,                                0
                professional Counselors                                            16                                30
                Professwnal Counselom Fm”t’ylMmiage                                 2                                 4

      Nurses and Related                                                      30   (0.1%)I                     192 (0.2%)

               Registered (Professwnai) Nurses
                                     4’                              15
               Nurse Anesthetists
                                                 24                              139
               Nurse Mkiwives
                                                      1                               29
               Nurse Practitioners
                                                 0:                               2’
               Psychiatric Technicians
                                             I,                               7

      Emergency Care Personnel                                                 2   (0.0%),                      18 (0.0%)

      kxial Workers                                                            o (0.0%) ~                        4 (0.0%)

      rehabilitation/Restorative   Services Personnel                         4 (0.0%) f                       20 (0.0%)

      technicians and Technologists                                           2 (0.0%) ;                       18 (0.0%)

      fot Properly Coded                                                    178 (0.8%) I                      924 (0.7%)


    DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Office of Inspector General




                                                          A-1



—             .——
                                               APPENDIX                    B

          NATIONAL PRACTITIONER DATA BANK PROFILE OF MATCHES
                     QUERIERS INVOLVED IN MATCHES

   TYPE OF QUERfER                                        I   NUMBER OF MATCHES                      NUMBER OF WTCHES
                                                          I   Period k 9ni90 - 3f19B2              1 Period B: 31ZO192
                                                                                                                     -225194            1

   TOTAL                                                                         20,954                                123,695

   Non-Federai Hoapitai                                                   18,788(89.7%)                         87,434 (70.7%)

              1.     p“vikgingkrnpioyrnuu                                      6278                                 2~523
              Mandatay    rwo-year review                                     12J64                                 54274
             Rof~          review ocnvily                                        301                                 1,257
              Oltw                                                                42                                   2s1
              Siatc Ucaauhg    Boar~_                                              3                                   129

   HMCmPo                                             I                    1319 (6.3%)                         25,046 (20.2%)

             Inidol priV&?g@ltmp@wu?u
                                          776                                 15,234
             Mandamy      IW-ycor    review
                                    158                                  4736
             Bofmionol review Octiviiy
                                         350                                  4548
             Otk
                                                                35                                   42s
             State timing Boord~

                                                      !
                                                                                      o	                                83
                                                                                               I                                    I
  Other Non-Fedemi Health Care Entity                 I                     382 (1.8%)                          %711 (22%)

             Irri&d fWiVik@l@.??lf)@ftlUU                                       257                                  1,693
             Mn&lOty lrvo-ycorreview                                            111                                    845
             Rof~     reviewOctiviy                                              12                                    130
             other                                                                1                                     43
             State Lictnsing   Boord~                                                 1                                  0

                                                     1
  Federal Hospital                                                          3M (1.6%)                           1,9% (1.6%)

             Inidd privilegingkrrlpbyrnent           1                          202                                  1,144
             Man4UOIY     IWO-yaw revkw                                         127                                   8.28
             Profarional review     octivy                                        5                                    23
             other                                                                o                                     1

  State Licensing Board                                                      69 (0.3%)                            800 (0.6%) i

             State liceming boord                                                65                                   766
             Mondumy      two-year mv&/                                           3                                    15
             hidOlpnvile@glmplo&_                                                 I                                    17
             Profmionol review                                                    o                                      2


  Group Practice                                                             42 (0.2%)                          4,970 (4.0%)
                                                                                                                            ,
II ProfesaionaiSociety                                                       15 (0.1%) I                         478 (0.4%) //
                                                                                           (                                    I


1 Other Federal Health Care Entity
!~’Not Properly Coded
                                                                              5 (0.0%)                           258 (0.2%)

                                                                             o (0.0%)                              2 (0.0%)

DATA SOURCE National Practitioner Data Bank. AIIALYSIS: HHS Office of Inspector General



    ‘Denotes inconsistency between querying entny type and query type; could result from improper form completion
or incorrect assignment of entity type code.



                                                     B-1
                                            APPENDIX                              C

              NATIONAL PRACTITIONER DATA BANK PROFILE OF MATCHES
               MALPRACTICE PAYMENT REPORTS INVOLVED IN MATCHES

          TYPE OF                                 NUMBER         OF                      NUMBER OF
          ACT/OMISSIONz                    MALPRACTICE MATCHES                     MALPRACTICE MATCHES
                                            Period k 9/MJO- 3/19/92                 Period B: 31’20P2- 2f25P4

                                                    Total Matches      = 20,954             Total Afatches=123,695

          TOTAL                                                          18$21                                110,058
          MALPRMXICE
          PAYMENT
          MATCHES

         Surge~-Related                                       5,871 (31.7%)                          34,949 (31.8%)

         Diagnosis-Related                                    5,125 (27.7%)                          30,723 (27.9%)

         Treatment-Related            I
                      3,440 (18.6%)                          21,055 (19.1%)

         Medieation-Related                                      1s35 (7.2%)                          7,024 (6.4%)

         Obstetrics-Related                                      l@5    (6.9%)                        8,871 (8.1%)

         Anesthesia-Related                                       583 (3.1%)                          3,067 (2.8%)
         Monitoring-Related                                       235 (1.3%)                          1377 (1.3%)

         Intravenous and Blood                                    220 (1.2%)                            796 (0.7%)
         Products-Related

         Miscellaneous                                            206 (1.1%)                          1,271 (1.2%)

         Biomedical Equipment/                                    121 (0.7%)                            533 (0.5%)
         Product-Related

         Not Properly Coded                                       99 (0.5%)                             392 (0.4%)




     DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Office of Inspector                       General




         lMalpractice payment reports can be given one or two codes indicating type of act or omission. Of the 18,521
     maipractim payment matches in the first period, only 4,088 were assigned two codq in the second period, only
     21,286 had two codes. For clarity, these secondary codes have been disregarded in this table.


                                                           c-1


—.
                     NATIONALPRACIT170NER DATA            BANK PROFILE    OF MATCHES
                     MALPRAC’lTCE    PAYMENT     REPORTS     INVOLVED    IN MATCHES
                                                (continued)


      WRACTICE    PAYMENT               NUMBER OF MATCHES                NUMBER OF MATCHES
      AMOUNT (SINGLE                     Period k 9/1/’90- 3/19/92       Period B: 3f20P2 - 2/2SP4
      PAYMENTS ONLY)

      TOTAL WRACTICE                                          16,962                            101,492
      PAYMENT MATCHES

      $1- $29,!399                                     6,434 (37.9%)                   36,268 (35.7%)

      $30,000-$49,999                                  1#36 (8.9%)                      8,739 (8.6%)

      $50,000-$99,999                                  2870 (16.9%)                    16S50 (16.3%)

      $100,000-$499,999                                5,129 (30.2%)                  32,560 (32.1%)

      $500,000 and above                               1,023 (6.0%)                     7375    (7.3%)


     II
      Mean

      Median
                                                        $132,358

                                                         $50,000
                                                                                         $149,114

                                                                                          $60,000

      Mode                                              $1OO,OOO                         $200,000


      NOTE: An additional 1S59 matches in Period A and 8,566 in Period B involved malpractice
            payments that belonged to a series of payments of unknown total value.

     DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Offiw of Inspector General




                                                 c-2


—.
                                          APPENDIX                       D

                   NATIONAL PRACTITIONER DATA BANK PROFILE OF MATCHES
                       ADVERSE ACIION REPORTS INVOLVED IN MATCHES

             TYPE OF ADVERSE              NUMBER OF ADVERSE                   NUMBER OF ADVERSE
             ACTION                        ACTION MATCHES                       AC1’’IONMATCHES
                                          Period k 9/1/90 - 3119P2            Period B: 3/20/92 - 2/25/94

                                                 Total Matches = 20,954              Total Matches= 123,695

             TOTAL ADVERSE                                       &433                                 13,637
             ACTION MATCHES

             Lieensure                I                  1*6 (51.6%)                          7,567 (55.5%)
                Revocation                                      52                                   288
                Probation                                      560                                 3,020
                Suspension                                     129                                   912
                Miscellaneous                                  515                                 3,347

             Clinical Privileges                         1,144 (47.0%)                        5,905 (43.3%)
                Revocation                                     144                                   809
                Suspension                                     164                                 1,124
                Voluntcuy Surrender                            222                                 1,067
                Reduced Privileges                             122                                   621
                Other Restriction                              113                                   617
                Denial                                         292                                 1,206
                Revision to Action    ,                         87                                   461

             Professional Society                           33 (1.4%)                           165 (1.2%)
             Membership

                Revocation
                                      7                                   67
                Suspension
                                      8                                   17
                Denial
                                         17                                   52
                Other Restriction
                               o                                   11
                Not proper~ Coded
                               1                                   18




                                                      D-1


-- —..   _
                          ADVERSE ACTION REPORTS INVOLVED IN MATCHES

                                           (continued)

   REASON FOR                      NUMBER OF ADVERSE                            NUMBER OF ADVERSE
   ACTION                          AC170N MATCHES                               ACT’IONMATCHES
                                   Period A: 9/1190- 3119L32                    Period B: 3t20i92 - 2J’2W4

                                       TotaI Matches = 20,954                       Total Matches =123,695

   TOTAL ADVERSE                                                  2,433                                      13,637
   ACTION MATCHES

   Alcohol and Other                                           238 (9.8%)                                 1300 (9.5%)
   Substance Abuse

   Ineompetenee/MaI­                                          380 (15.6%)                               1,988 (14.6%)
   practice/Negligence
   Narcotiea Violations                                          93 (3.8%)                                 470 (3.4%)

   Felony                                                        28 (1.2%)                                 149 (1.1%)
   Fraud                                                        27 (1.1%)                                  161 (1.2%)

   Unprofessional Clmduct                                     263 (10.8%)                                1,295 (9.5%)

   Mental Disorder                                               14 (0.6%)                                  97 (0.7%)

   Allowing Unlicensed                                          21 (0.9%)                                   95 (0.7%)
   Person to Practice

   Disciplinary Action                                         127 (5.2%)                                  700 (5.1%)
   I’aken in Another State

   PhysicalImpairment                                           11 (0.5%)                                   51 (0.4%)

   Other Reason--Not                                          594 (24.4%)                              3,320 (24.3%)
   21assifled1

   Uiseellanems Actions2                                      603 (24.8%)                              3,826 (28.1%)

   Yot Properly Coded,                                          34 (1.4%)                                 185 (1.4%)
   3eneral Code Used

DATA SOURCE: National Practitioner Data Bank. ANALYSIS: HHS Office of Inspector General


    lReporters   use this code when none of the above categories appty.

     2Misce11aneous Iicensure actions are not assigned clasifieation codes to parallel other types of actions. The
breakdown of miscellaneous licensure action matchea is as follows (Period A followed by Pe~iod B): License Restored
or Reinstated, (Period A) 82 and (Pericd B) 604; Reinstatement Denied, 5 and 41; Reprimand, 176 and 9W, Other
(Including Censure and Surrender), 249 and 1,734 License Denied (Renewal Only), 1 and 10, and Not Properly
Coded, 2 and 12 In addition, there were 87 matches in Period A and 461 in Period B related to revisions to actions
on hospital clinical privileges and 1 in the Period A and 18 in Period B related to a revision to action on professional
society membership.



                                                        D-2
                             APPENDIX                  E

                                        NOTES

 1.    Health Care Quality Improvement     Act of 1986 (P.L. 99-660), Section 402.

 2.    Adverse actions include licensure revocation, suspension, and probation; clinical

       privilege revocation, suspension, reduction, restriction, and voluntary surrende~

       and professional society membership revocation, suspension, and denial; as well

       as other categories. Some of these other categories include actions favorable to

       practitioners, such as license reinstatement.


       Under current law, State licensing boards must report actions only against

       physicians and dentists, whereas other entities must report actions against

       physicians and dentists and may report actions against other licensed health

       care practitioners.


3.    Only the following adverse actions must be reported:     1) All licensure

      disciplinary actions on physicians and dentists based on reasons related to

      professional competence or conduct must be reported. 2) All hospital and

      other health care entity professional review actions based on reasons related to

      professional competence or conduct adversely affecting clinical privileges for a

      period longer than 30 days; or voluntary surrender or restriction of clinical

      privileges while under or to avoid investigation. 3) All professional society

      professional review actions based on reasons related to professional

      competence or conduct adversely affecting membership.


4.    Malpractice insurers do not submit reports of payments on behalf of facilities

      or corporations.


5.    Health care entities must provide health care services and engage in

      professional review activity through a formal peer review process.


6.    There are no Federal penalties assessed against hospitals for not querying the

      Data Bank; however, their failure to query could be used against them in legal

      proceedings.


7.    Department of Health and Human Services, Public Health Semite, Health

      Resources and Semites Administration, Bureau of Health Professions, Division

      of Quality Assurance, National Practitioner Data Bank Statiwical Summa~ As of

      Month Ending April 30, 1994, Internal Document. Our counting of matches

      (presented in our findings) is somewhat different than HRSA’S; in particular,

      we excluded all self-queries, matches later voided, instances when a querier

      matched on information it sent in, duplicate reports,
                                                      .      and duplicate
                                                                    .
                                                                           queries.

                                                                            .




                                        E-1

8.	    The initial profile report was entitled National Practitioner Data Bank Profile of
       Mulches (Department of Health and Human Services, Office of Inspector
       General, National Practitioner Data Bank Profile of Matches, OEI-01-90-(X)522,
       April 1992). The broad study of usefulness and impact produced two reports:
       Department of Health and Human Services, Office of Inspector General,
       National Practitioner Data Bank Usefi[ness and Impact of Repotis to Hospitah,
       0EI-01-90-O0520, February 1993 and Department of Health and Human
       Services, Office of Inspector General, National Practitioner Data Bank
       Use&lness and Impact of Repons to State Licensing Boariir, OEI-01-90-00523,
       March 1993.

9.	    Because of the time our analysis and reporting of the data we requested for our
       study of the usefulness and impact of matches took, we were able to get
       cumulative statistics on Data Bank activity that was more recent than February
        1994. At several points in this report, we reference data on the universe of all
       reports and queries as of April 30, 1994. While we cannot make date-speciilc
       comparisons between the universe of matches and the universe of all reports
       and queries, it is highly unlikely that even if we had information for exactly the
       same dates our comparisons would be markedly different given historical trends
       for this information,.

10.	   Some types of matches were excluded from the computer file. These were self-
       queries, in which practitioners requested their own Data Bank records, and
       matches on reports that were later voided (i.e., removed from the Data Bank
       because of errors).

       The file we received from Unisys contained individual records for queries and
       reports. Included in each record was a field for “Practitioner Identification
       Number (PIN).” To construct our file of matches, we created a new data set
       containing a single record for each request-report pair that named the same
       PIN.

       We made two assumptions regarding the file received from Unisys. The first
       was that the PIN in each record was correct, meaning that only queries and
       reports referring to the same individual were paired. The second is that, with
       the exceptions noted above, the file did in fact contain the entire set of
       practitioners for whom both a report and a query had been received.

11.	   In addition, there were a number of “echoes” (in which a querier receives
       information it had previously submitted), duplicate reports, and duplicate
       queries. None of these (28,650 matches in the more recent period) constituted
       a real transfer of information, and thus they are not included in any of our
       other summary statistics. Unisys also excluded reports sent to practitioners
       querying about themselves from the data base we received, but we do not know
       how many times this occurred.




                                         E-2

 12.   Numbers are approximate since the information we have on queries is from
       slightly different time periods than our study periods.

 13.   Numbers of reports are approximations because the information we have
       available is from somewhat different time periods than the study periods.

 14.   The odds of matching continue to grow. Queries received in the month of
       February 1994 had a better than 1 in 14 chance of matching, according to
       HRSA communication.

15.    The number of matches is greater than the number of practitioners because
       practitioners could have been mentioned in more than one report or could have
       been queried about more than once.

       The total number of practitioners involved in matches is probably smaller than
       the number in the first period added to the number in the second period
       because practitioners matched on in the first period could well have been
       matched on in the second period as well. According to Data Bank records, as
       of ApriJ 30, 1994, 37,554 practitioners had been matched on; this is smaller
       than the sum of 32,605 and 10,185 even though it is for a longer time period
       and includes practitioners matched on by self-queries.

16.    Department of Health and Human Services, Public Health Sexvice, Health
       Resources and Services Administration, Bureau of Health Professions, Division
       of Quality Assurance, National Practitioner Data Bank Statistical Summa~ As of
       Month Ending April 30, 1994, Internal Document.

17.    This does not mean that the total number (from September 1, 1990 to
       February 1994) of queriers who submitted requests resulting in matches was
       over 11,000. Many who matched in the first period probably matched in the
       second period.

18.    National Committee for Quality Assurance, Accreditation Standards,
       Credentialing Standards 7.1 and 11.1 (1993) 2S, 30.

19.    The remaining 0.5 percent of hospital matches in the later period were from
       queries marked as State licensing board (129 matches), or other (251 matches).
       This indicates that some hospitals may not be sure which of the “query type”
       boxes on the query form they should check, or that some non-hospitals were
       inappropriately assigned identification numbers in the hospital category.

20.    The number of matches is greater than the number of reports because multiple
       queriers can match on the same report.

21.    These calculations are based only on the 16,962 matches involving one-time
       uavments. Excluded are 1.559 matches invokhw uavments that were Dart of a




                                        E-3

       series of installments, and for which the total payment amount was not
       available.

22.	   These calculations are based only on the 16,962 matches in Period A and
       101,492 matches in Period B involving one-time payments. Excluded are 1,559
       matches in Period A and 8,566 in Period B involving payments that were part
       of a series of installments, and for which the total payment amount was not
       available.

23.	   The coding system for classes of and reasons for adverse actions was taken
       from the National Practitioner Data Bank reporting instructions.

24.	   A match was considered to be an interstate match if the querier’s State was
       different ffom either the practitioner’s work State or, for adverse actions, the
       reporter’s State. We did not use the reporter’s State for malpractice payment
       matches because many physicians are insured by out-of-State companies.




                                         E-4

